March 20, 2009

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Management Advisory Report – Time-Definite Surface Network Risk
         Mitigation (Report Number EN-MA-09-001)

This report presents the results of our review of Time-Definite Surface Network Risk
Mitigation (Project Number 08XG045EN000) and responds to a request from the Vice
President, Network Operations. Our objectives were to determine what actions
management took to mitigate previously identified concerns and risks associated with
bulk mail center (BMC) outsourcing and whether there are any additional concerns and
risks associated with the current Time-Definite Surface Network (TDSN) strategy. This
review addresses strategic, financial, and operational risks. Appendix A presents
additional information about this audit.

Assessment of Risk Mitigation Strategies

Management requested the U.S. Postal Service Office of Inspector General (OIG) to
review the status of risks and concerns identified in a previous OIG report.1 We
determined that the concept of contracting out BMC operations may have merit;
however, various risks and concerns remain for management to address. Our review
identified 12 risks associated with the U.S. Postal Service’s BMC outsourcing initiative.
We considered three risks critical2 to the success of this initiative: political risk, cost
factor analysis, and capacity of the contractor. Table 1 shows the risks, status of each
risk, and those risks we consider critical to the success of this initiative.




1
 Bulk Mail Center Outsourcing (Report Number EN-WP-07-001, dated April 25, 2007).
2
 We define critical risks as highly significant. If the Postal Service does not adequately address the risks, each could
negatively affect the outcome of this initiative.
Time-Definite Surface Network Risk Mitigation                                                  EN-MA-09-001




                                     Table 1. Status of Identified Risks
                           Risk                                             Status             Critical
      Political                                              Newly Identified Risk                √
      Cost Factor Analysis                                   Not Addressed                        √
      Most Efficient Internal Operation (MEIO)               Not Addressed
      Analysis
      Aggressive Implementation Date                         Addressed
      Capacity of the Contractor                             Addressed - OIG Concerns Remain      √
      Scope of Outsourcing Effort                            Addressed - OIG Concerns Remain
      Revenue at Risk                                        Addressed - OIG Concerns Remain
                                       3                     Partially Addressed
      Untested Decontainerization Efficiencies
      Stakeholder Interest (Communications)                  Partially Addressed
      Internal Control and Quality Assurance                 Newly Identified Risk
      Contractor Conflict of Interest or Misconduct          Newly Identified Risk
      Contingency Planning                                   Newly Identified Risk


We recognize that management may address some of these issues as the initiative
progresses. Although it may be difficult for management to successfully mitigate all of
the identified risks, we believe they should be attentive to them and to our concerns as
they proceed with this initiative. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Network Operations:

1. Develop a written plan to address risks and concerns prior to moving forward with
   the Time-Definite Surface Network initiative.

Management’s Comments

Management explained they are no longer pursuing the outsourcing of BMC work at this
time. Instead of outsourcing, management will reengineer product flows through their
current infrastructure. Testing of the concept will begin in the spring of 2009.
Management agreed to take steps to mitigate those risks identified that are relevant to
the new direction. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.




3
    Mail is unloaded from large standardized containers and floor loaded into trailers.


                                                              2
Time-Definite Surface Network Risk Mitigation                                EN-MA-09-001




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachment

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Katherine S. Banks




                                                3
Time-Definite Surface Network Risk Mitigation                                 EN-MA-09-001



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service’s strategic objectives state that it is committed to improving its
operational efficiency by consolidating mail processing operations. The agency’s 2006-
2010 Strategic Transformation Plan includes efforts to create a flexible network to
increase productivity and effectiveness. In addition, the President’s Commission found
the Postal Service had more facilities than needed and recommended optimizing the
network by closing and consolidating unneeded processing centers. Further, the Postal
Act of 2006 required the Postal Service to provide a strategy for rationalizing the
facilities network and removing excess processing capacity and space from the
network.

The Postal Service operates 21 BMCs to support mail distribution and transportation for
surface parcel products, catalogs, and advertising mail. The BMC network relies
heavily on containerized dispatches. In February 2007, the Postal Service developed a
proposal to outsource BMC operations. This proposal sought to implement industry
best practices for floor-loading trailers, reduce costs, and improve service.
Management issued a draft request for proposal in July 2008. During our review,
management was evaluating alternatives to leverage industry best practices within the
BMC network and plans to test various network concepts in mid-2009.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this review were to:

    •   Determine what actions management took to mitigate previously identified
        concerns and potential risks associated with BMC outsourcing.
    •   Determine whether there are any additional concerns and potential risks
        associated with the TDSN strategy.

To accomplish our objectives, we reviewed:

    •   Concerns and risks previously identified.
    •   The revised comparative analysis, the draft request for proposal, and other
        related documents.
    •   Government Accountability Office and OIG reports regarding outsourcing.

In addition, we:

    •   Interviewed Postal Service managers.
    •   Determined additional risks and concerns related to this initiative.
    •   Rated the impact and vulnerability of each risk as high, medium, or low based on
        our audit experience and judgment.



                                                4
  Time-Definite Surface Network Risk Mitigation                                       EN-MA-09-001



  We conducted this review from September 2008 through March 2009 in accordance
  with the President’s Council on Integrity and Efficiency, Quality Standards for
  Inspections. We discussed our observations and conclusions with management on
  January 21, 2009, and included their comments where appropriate.

  PRIOR AUDIT COVERAGE

                       Report
Report Title                              Final Report Date              Report Results
                       Number
Miami AMC           EN-AR-08-004              July 16, 2008    The Postal Service outsourced some
Outsourcing                                                    operations at the Miami Airport Mail
                                                               Center (AMC) and reduced costs with
                                                               minimal service performance impact.
                                                               Management generally complied with
                                                               existing policies and procedures and
                                                               agreed with the recommendation to
                                                               conduct a post-implementation review
                                                               (PIR) after outsourcing the Miami AMC
                                                               to determine whether the outsourcing
                                                               was cost-effective.
St. Louis AMC       EN-AR-08-002           February 29, 2008   The Postal Service’s decision to
Outsourcing                                                    outsource some St. Louis AMC
                                                               operations should reduce costs with
                                                               minimal impact on service
                                                               performance. However, management
                                                               did not develop guidance for
                                                               measuring results. Management
                                                               agreed to establish an AMC PIR
                                                               program and conduct a PIR for the St.
                                                               Louis AMC.
Bulk Mail           EN-WP-07-001             April 25, 2007    This memorandum identified 10
Center                                                         concerns and risks associated with the
Outsourcing                                                    Postal Service’s plan to outsource the
                                                               processing and distribution operations
                                                               of the BMC network. The concept of
                                                               contracting out these operations could
                                                               have merit and may result in
                                                               significant savings for the Postal
                                                               Service. The OIG recommended the
                                                               Postal Service initiate a rigorous risk
                                                               management approach as part of the
                                                               BMC outsourcing effort.




                                                     5
Time-Definite Surface Network Risk Mitigation                                   EN-MA-09-001


                                                APPENDIX B: DETAILED ANALYSIS

Risks Identified in Prior OIG Reports and Newly Identified Risks

Risk Name
Political Risks

Risk Description
Ability to effectively convince legislators of the necessity for specific network realignment strategies and operational
efficiency initiatives, including transformation of the BMC network.

Risk Assessment Summary
                    Impact (High – Critical)                                        Vulnerability (High)
    •   Failure to convince and work effectively with               •   Resistance to Postal Service efforts.
        Congress and the Postal Regulatory Commission
        (PRC) could result in undesirable legislation and/or
        regulatory constraints that could be harmful to the
        network realignment strategies and operational
        efficiency.

Current Postal Service Risk Mitigation Strategies
    •   Proactively communicating with legislators and other major stakeholders.
    •   Responding to congressional inquiries regarding outsourcing efforts.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                                        Not Addressed
    •   It is imperative that the Postal Service work with key legislators and the PRC to enhance their understanding of the
        necessity for specific realignment strategies.




                                                               6
Time-Definite Surface Network Risk Mitigation                                                                                                  EN-MA-09-001




Risk Name
Cost Factor Analysis (Business Case/Plan)4

Risk Description
Consider all cost factors affecting projected cost savings, including transitioning of affected employees, costs associated
with transformation of the BMC facilities for future use, and costs associated with revising ground transportation contracts
for current BMC transportation routes.

Risk Assessment Summary
                       Impact (High – Critical)                                                         Vulnerability (Medium)
       •   Inadequate data may distort results of analysis,                              •   Without adequate data, the potential for making a
           possibly leading to incorrect decisions.                                          flawed decision increases substantially.

Current Postal Service Risk Mitigation Strategies
       •   Management indicated it would refine the business case as the initiative progresses.
       •   The business case will take into account costs to transition employees and transform BMC facilities.
       •   Transportation
              o Most headquarters-funded and some area-funded transportation contracts contain a 60-day termination
                 clause without payment of any indemnity.
              o The Postal Service should be able to avoid most indemnity costs by timing cancellation of transportation
                 contracts with the TDSN contract ramp-up to minimize indemnity costs.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                                           Not Addressed
       •   Management has not fully developed a business case.
       •   Management has provided insufficient documentation to substantiate that indemnity costs would be minimal. But, if
           management has been diligent when renewing or establishing new transportation contracts, indemnity costs should
           be minimal as this initiative has been in progress for at least 1.5 years.




4
    A business case is a structured proposal for Postal Service business process improvement that functions as a decision package for its leadership.
                                                                                  7
Time-Definite Surface Network Risk Mitigation                                                               EN-MA-09-001




Risk Name
Most Efficient Internal Operation Analysis

Risk Description
Baseline for comparing an in-house operation with an outsourcing proposal includes the requirement to identify the
expected performance of a redesigned operation.

Risk Assessment Summary
                       Impact (High)                                                  Vulnerability (High)
    •   Inadequate data for the MEIO may lead to incorrect         •   Significantly increases the risk of not selecting the
        decisions.                                                     best option between in-house work and outsourcing.

Current Postal Service Risk Mitigation Strategies
    •   Developed a draft comparative analysis which includes the MEIO.
    •   Considering opportunities to improve operational efficiencies, such as workhour and facility reductions, through a
        new attempt to model the BMC network.
    •   Expected improvements from implementing industry best practices would result in a reduced number of trailers,
        thus reduced transportation costs.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                                   Not Addressed
    •   Management has provided insufficient documentation to support analysis of workhour and facility reductions.
    •   Management has provided insufficient documentation to support improvements expected from implementing
        industry best practices.
    •   Management has not completed an MEIO.




                                                              8
Time-Definite Surface Network Risk Mitigation                                                                EN-MA-09-001




Risk Name
Aggressive Implementation Date

Risk Description
Implementation date appeared very optimistic and poorly timed.

Risk Assessment Summary
                    Impact (Medium)                                              Vulnerability (Medium)
    • Mail may be delayed.                                         • Contractor may have difficulty processing mail while
    • Postal Service brand may be adversely impacted.                establishing facilities during peak seasons or short
                                                                     implementation periods.

Current Postal Service Risk Mitigation Strategies
    •   Revised the implementation to start after peak mailing season.
    •   Revised the request for proposal to state the entire network must be operational within the first 18 months of the
        contract. Includes a gradual implementation of facilities throughout the 18-month period.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                         Addressed
    •   An 18-month implementation period beginning after peak mailing season should mitigate risks associated with the
        implementation date.




                                                              9
Time-Definite Surface Network Risk Mitigation                                                                  EN-MA-09-001




Risk Name
Capacity of the Contractor

Risk Description
This outsourcing effort is very large and, as a result, the number of contractors with the capacity to handle such an effort
is limited.

Risk Assessment Summary
                    Impact (High – Critical)                                           Vulnerability (High)
    •   Contractor may not be able to cost effectively handle        •   Contractor’s own business volumes may increase at
        mail volumes during peak mailing seasons and/or                  the same time the contractor needs to process and
        consistently meet required service standards.                    transport increased Postal Service volumes.
    •   Postal Service brand may be adversely impacted.

Current Postal Service Risk Mitigation Strategies
    •   Contractor is required to provide details about its processing operations including how mail will be distributed,
        throughput of the equipment, machine productivity, missort rates, downtime percentages and run times.
    •   Contractor must provide its available capacity and how it will process its own product and postal volume during
        regular and peak seasons.
    •   Contractor is also required to conduct a 3-day acceptance test, which tests the complete process with average
        daily volume for that facility.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                             Addressed – OIG Concerns Remain
    •   If the Postal Service selects a contractor whose capabilities it has critically assessed, capacity of the contractor
        may not be an issue.
    •   Challenges remain during peak periods.




                                                                10
Time-Definite Surface Network Risk Mitigation                                                                   EN-MA-09-001




Risk Name
Scope of Outsourcing Effort

Risk Description
Implementing major initiatives using an incremental approach may be warranted in an uncertain environment.

Risk Assessment Summary
                          Impact (High)                                                Vulnerability (High)
    •   Not testing BMC outsourcing initiative in a controlled        •   Postal Service has not managed a contract of this
        environment at a reduced number of facilities could               magnitude before.
        increase risk of failure.                                     •   Contractors may not be able to provide required
                                                                          services within projected costs, which could affect
                                                                          service performance.

Current Postal Service Risk Mitigation Strategies
    •   Considered outsourcing only a portion of the network, but believes this would result in diseconomies of scale.
    •   Using both contractor and Postal Service facilities could result in network redundancies and increase transportation
        and overall network operating costs.
    •   A phased approach could disrupt plans to use BMC facilities for Flats Sequencing System machines and other
        operations.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                          Addressed – OIG Concerns Remain
    •   Although the Postal Service has considered the risks, we believe testing the BMC outsourcing initiative through a
        pilot program with a reduced number of facilities could further mitigate risks.
    •   Management should evaluate its ability to monitor and manage the contractor.




                                                                 11
Time-Definite Surface Network Risk Mitigation                                                                  EN-MA-09-001




Risk Name
Revenue at Risk

Risk Description
Revenue at risk due to large dollar exposure in this initiative.

Risk Assessment Summary
                         Impact (High)                                               Vulnerability (High)
    •   Potential loss of revenue.                                  •   Contractor’s system for measuring mail processed
                                                                        and revenue due will be critical to ensuring accurate
                                                                        revenue realization.

Current Postal Service Risk Mitigation Strategies
    •   Contractor is required to achieve 95 percent service performance (Postal Service’s performance is currently at 60
        percent for some classes of mail).
    •   The Postal Service will use scan data to monitor performance and compensate contractor. Using scans to
        compensate contractor is an incentive to ensure mail is scanned.
    •   The Postal Service has implemented disincentives for late deliveries.
    •   Postal Service employees will monitor contractor application of bar codes on mail without bar codes.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                            Addressed – OIG Concerns Remain
    •   Large dollar exposure, although initiative does provide increased flexibility by reducing fixed costs and potentially
        increases service.




                                                               12
Time-Definite Surface Network Risk Mitigation                                                                                                      EN-MA-09-001


Risk Name
Untested Decontainerization Efficiencies

Risk Description
Ability to floor load5 and reduce the number of trailers to improve efficiency and reduce costs.

Risk Assessment Summary
                       Impact (Medium)                                                                    Vulnerability (Medium)
    •    Efficiency may not improve and costs may not                                      •   Without adequate data, the potential for making a
         decrease if additional workhours are required to                                      flawed decision increases substantially.
         decontainerize and recontainerize the mail.                                       .
    •    Without an adequate floor loading analysis, there
         may be inaccurate savings assumptions.
    •    Without adequate supporting documentation, the
         Postal Service may be vulnerable to criticism from
         unions, mailers, and other stakeholders

Current Postal Service Risk Mitigation Strategies
    •    Management has already factored additional workhours into the comparative analysis.
    •    Employees would only floor load inter-BMC transportation.
    •    Floor loading is a proven technique – a common practice in the transportation industry.
    •    Floor loading pilot test showed favorable results.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                                     Partially Addressed
    •    Management provided insufficient data. Specifically, management provided an explanation of methodology but did
         not provide data to support assumptions for the efficiency gains projected from decontainerizing mail, floor loading,
         and then recontainerizing mail to reduce the number of transportation trips.



5
  Using a brick-laying or T-stacking technique for loading individual handling units into trailers. Floor loading uses every available cubic foot by loading the trailer
from floor to ceiling and from back to front. This method results in the most efficient trailer use and reduces the number of trailer equivalents required to transport
a given amount of mail.
                                                                                   13
Time-Definite Surface Network Risk Mitigation                                                                                                EN-MA-09-001




Risk Name
Stakeholder Interest (Communications)

Risk Description
Ensure interests of impacted stakeholders are clearly identified and changes impacting them are effectively
communicated.

Risk Assessment Summary
                          Impact (High)                                                                   Vulnerability (High)
    •    Providing stakeholders with late or inadequate notice                         •   Stakeholders have applied pressure in previous
         of significant changes increases the risk that                                    efforts to optimize the mail processing network,
         pressure from them could disrupt the Postal                                       which has resulted in cancellation or postponement
         Service’s efforts.                                                                of those efforts.

Current Postal Service Risk Mitigation Strategies
    •    Management has corresponded with Congress on the initiative and will brief them when the Postal Service makes
         a final decision on the initiative.
    •    Management will brief mailers once they understand the design of the contractor’s network.
    •    Management has provided unions with a copy of the draft comparative analysis6 and briefed them.

OIG Assessment of Postal Service Risk Mitigation Strategy Progress
                                                  Partially Addressed
    •    Stakeholder communications have been limited, and some concerns have not been addressed timely.
    •    Management has provided insufficient documentation to indicate they have considered employees’ and mailers’
         interests adequately.
    •    Management has not developed a communications plan.




6
 An assessment of a product or service in use, compared to available information and forecasts regarding a like (similar) product or service that has been
proposed to fulfill a client need. The Postal Service used an in-house option modified to accommodate floor loading inter-BMC trailers.
                                                                                14
Time-Definite Surface Network Risk Mitigation                                                                                                         EN-MA-09-001




                                                                NEWLY IDENTIFIED RISKS

                                                                                                 Risk Assessment Summary
    Risk Identified7                    Risk Description
                                                                                         Impact                           Vulnerability
Internal Control               Establish controls and a quality             Potential loss of revenue. (High) If controls are in place and ready
and Quality                    assurance process that                                                         to implement prior to contracting
Assurance                      effectively protects the integrity                                             out BMC operations, risks should
                               of the initiative and revenue.                                                 be reduced. (Medium)

Potential                       An organizational conflict of               Conflict of interest may:                      Conflict of interest can be
Contractor Conflict             interest exists when the nature                • Provide the contractor                    mitigated if management controls
of Interest or                  of the work to be performed                          with an unfair competitive            are enhanced and the Postal
Misconduct                      under a contract may give a                          advantage.                            Service diligently monitors the
                                supplier an unfair competitive                 • Impair the contractor’s                   contractor’s performance.
                                advantage, or when a supplier                        objectivity or ability to             Additionally, incentives are
                                has other interests that may                         perform satisfactorily.               included in the contract which
                                impair its objectivity or ability                    (Medium)                              should improve contractor
                                to perform satisfactorily.                                                                 performance. (Medium)

Contingency                     Ability to recover from                     Without a contingency plan, there              If the Postal Service has critically
Planning                        disruptions in contractor’s                 is the potential of disruption in              assessed the contractor, that
                                performance requirements.                   service, loss of revenue, and                  should minimize the risks of
                                                                            increased costs. (High)                        disruptions in service and loss of
                                                                                                                           revenue. (Medium)




7
    We identified four new risks and included three in this table. The fourth is political risk, which we considered critical and, therefore, included it on page 5.
                                                                                      15
Time-Definite Surface Network Risk Mitigation                         EN-MA-09-001



                                  APPENDIX C: MANAGEMENT’S COMMENTS




                                                 16
